APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(April 17, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion
and
Order Granting
Defendants’ Motion for Summary
Judgment in the United States
District Court for the Eastern District
of Michigan Southern Division
(October 10, 2018) . . . . . . . . . . . . App. 50
Appendix C Judgment in the United States
District Court for the Eastern District
of Michigan Southern Division
(October 10, 2018) . . . . . . . . . . . . App. 67
Appendix D Order Denying Rehearing in the
United States Court of Appeals for the
Sixth Circuit
(May 20, 2020). . . . . . . . . . . . . . . App. 69

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0219n.06
Case No. 18-2296
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: April 17, 2020]
__________________________________________
RONALD GRAVES,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
SHERIFF DALE MALONE, et al.,
)
)
Defendants-Appellees.
)
__________________________________________)
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN
OPINION
BEFORE: COLE, Chief Judge; MERRITT and
LARSEN, Circuit Judges.
COLE, Chief Judge. On the day the events at issue
occurred, Plaintiff Ronald “Ronnie” Graves was

App. 2
experiencing an episode of severe mental illness. In a
delusional state, he attacked his grandmother with a
knife—a crime for which he was eventually found not
guilty by reason of insanity. After the assault, his
grandmother flipped Graves into a bathtub and
disarmed him, taking with her the blade of the knife he
had used in the attack. She then fled their trailer home
and, from a neighbor’s trailer, called 911. Dispatch
informed responding officers with the Monroe County
Sheriff’s Department that Graves was delusional, a
suicide risk, and had threatened to kill himself with a
knife on several previous occasions.
When deputies entered Graves’s trailer, they found
Graves sitting still in the bathtub, with his legs
dangling over the side of the tub. Graves’s eyes were
open, but he was completely non-responsive to the
commands of the deputies. Graves then raised his fist,
which contained an unknown small, dark object. One of
the responding officers, purportedly perceiving a threat
to himself, shot at Graves but missed. Another,
purportedly perceiving a threat to his partner, shot at
Graves twice with an AR-15. One of the bullets hit
Graves in the face, leading to serious facial
disfigurations. Several seconds later, a third officer
tased Graves.
Graves brought a cause of action under 42 U.S.C.
§ 1983, alleging that defendants—Sergeant Gary
Hedger, Deputy Kurt Potratz, and Deputy Charles
Myers—used excessive force in violation of the Fourth
Amendment. All three defendants moved for summary
judgment, arguing that they were entitled to qualified
immunity. The district court granted their motion and

App. 3
entered judgment in the defendants’ favor. Graves now
appeals. For the reasons that follow, we affirm the
district court’s determination that Sergeant Hedger is
not liable in his supervisory capacity or for any failure
to protect Graves from the harm that befell him, but we
reverse the district court’s determination as to the
three officers’ individual liability.
I. BACKGROUND
A. Factual Background
On July 16, 2015, Ronnie Graves had been suffering
from severe hallucinations. Throughout the day, he had
been plagued by voices in his head telling him, among
other things, that he was going to be killed as part of a
human sacrifice. His mental breakdown culminated in
him using a knife to stab his grandmother in the
mobile home in which they both lived. He has no
memory of the attack.
Graves’s grandmother had sustained non-fatal
injuries in the confrontation, and she fled to her
neighbors’ trailer to seek help. She took with her the
knife blade, which had separated from the handle
during her struggle with Graves. The neighbors called
911 and reported the assault. Central dispatch
reported to responding law enforcement with the
Monroe County Sheriff’s Department that Graves had
a history of suicidal threats involving knives but there
was no incident history involving guns.
Defendants Hedger, Potratz, and Myers all
responded to the scene, as did other first responders.
Hedger was the first officer on the scene. He learned
from neighbors that the knife blade used in the attack

App. 4
was secure and that Graves was still in the trailer.
Hedger instructed another responding officer to acquire
the blade and secure it in a patrol vehicle.
Potratz was the second officer on the scene.
Immediately after he arrived, Potratz told Hedger he
was going to grab his firearm—an AR-15—and Hedger
ordered him to position himself with the weapon on the
south side of Graves’s trailer. Myers and Deputy
Melissa Crain arrived next. Hedger, Myers, and Crain
all positioned themselves at the north side of the
trailer—Myers and Crain with handguns drawn, and
Hedger with his taser drawn.
One of the officers yelled, “Ronnie, Sheriff’s office.”
Hedger, Myers, and Crain then entered the north door
of the trailer. As all three officers stood in the living
room, they quickly ascertained that there was no one in
the living room or the kitchen, but that the hallway to
the bedrooms and bathroom was too crowded to safely
enter.
Myers remained in the living room while the other
officers regrouped outside the trailer. Hedger acquired
a crowbar and, bringing Crain with him, pried open the
south door where Potratz was stationed with his AR15. As soon as the door was open, the three officers
stationed at the south door—Hedger, Crain, and
Potratz—could see Graves positioned in the bathtub
across the hallway from the door. He was seated, facing
out with his back to the wall, and his legs were
dangling over the side of the tub. Graves was
stationary, staring straight ahead, not making eye
contact with anyone.

App. 5
In the thirty-eight seconds that elapsed between
locating Graves and shooting him, the following events
transpired. As soon as he spotted Graves, Hedger
shouted: “In the tub. In the tub. Right there. Don’t
f***ing move.” Hedger and Crain entered the trailer
through the south door, while Potratz remained just
outside the door, his AR-15 trained on Graves. Hedger
then ordered Myers—who had remained in the living
room—to proceed down the cluttered hallway to the
bathroom where Graves had been located. Myers
proceeded down the hallway and made visual contact
with Graves.
The officers could not see Graves’s hands, so, over
the course of approximately 30 seconds, they
repeatedly shouted at Graves to show his hands.
Graves did not respond to the commands; instead, he
remained just as the officers found him, staring
vacantly ahead. As Hedger surveyed the situation, he
“wasn’t worried about [Graves] escaping”—he was
worried that Graves may try to provoke the officers to
shoot him, or, as Hedger put it, he “was worried about
a possible suicide by cop.” (Hedger Dep., R. 30-3,
PageID 566).
Myers testified that as he proceeded down the
hallway, he saw a metal folding chair outside the
bathroom door that impeded his ability to move, so he
picked it up and moved it aside. As he moved the chair,
Myers explained, his foot got caught in a divot in the
hallway floorboard—or, he conceded, it was possible
that he just tripped.
Meanwhile, as Myers fell, Graves continued to
suffer from extreme delusions. He recalls that, as he

App. 6
sat in the bathtub, he felt safe from the voices in his
head telling him that he and his family were going to
die. But now that law enforcement had broken into his
trailer, he heard voices “barking” at him, telling him
that “they were finally there to finish [him] off.”
(Graves Dep., R. 30-24, Page ID 1736, 1741). It was
then that he moved for the first time: he raised his
right fist straight up in the air. His fist contained a
black plastic item. The record is not clear as to what
the item was. Graves testified that he believed he was
holding a comb.
Myers testified that, as he was falling in the
hallway, he saw the item in Graves’s hand, perceived
it as a handgun, and feared for his life. He conceded,
however, that he had no reason to believe that Graves
had held a gun. Nevertheless, he decided then to shoot
Graves. But his shot missed.
Potratz, for his part, offered several—sometimes
contradictory—accounts of what he perceived the object
to be. He declared to his fellow officers immediately
after the incident that he believed the object was a gun.
But in his deposition, his story changed: despite
repeated questioning, he stated that he was unable to
identify what he thought the object was at the time,
other than that he perceived it to be “a weapon”—a
rather unhelpful categorization, as it turns out,
because Potratz also stated that in his view,
“[a]nything can be a weapon.” (Potratz Dep. R. 30-8 at
PageID 1042.) He did cross some possibilities off the
list stating that he did not perceive that Graves held a
knife with a blade or—despite his earlier proclamation
—a gun, and that he only later believed the object in

App. 7
Graves’s hand to be the bladeless knife handle used
earlier in the attack because someone told him that the
handle had eventually been recovered from the
bathtub.
As Myers shot his handgun at Graves, Potratz
concurrently fired his AR-15 twice. Potratz testified
that he didn’t shoot because he heard Myers’s gun go
off; indeed, he was not sure who shot first as between
him and Myers. He also could not specify whether he
perceived that Graves was extending his hand when he
shot, stating only that he “shot him when it was
threatening.” (R. 30-8 at PageID 1061.) Despite being
unsure as to the order of events, or even as to what
Graves was holding in his hand, he testified that he
deployed deadly force under the belief that he was
protecting Myers, because he perceived Graves could
have harmed him. One of the two bullets from Potratz’s
gun hit Graves directly in the face. After blasting
through Graves’s face, the bullet traveled through the
trailer park and penetrated at least two other trailers.
In the immediate wake of the shootings, Hedger
surveyed the gruesome scene. He knew that Graves
had taken a bullet to the right side of his face: blood
was everywhere and Graves’s “face was hanging off” as
Graves remained sitting still in the tub in the same
position in which they had found him. (Hedger Dep. R.
30-3, PageID 574–75). Hedger also confirmed that
Myers had not been shot. What happened next is
disputed. Hedger claims he ordered Graves to raise his
hands again. But Graves argues that statement is
contradicted by the evidence: the dashcam recording
suggests that no audible orders were given at all.

App. 8
Seven seconds after shots were fired, Hedger tased
Graves. He did so for a full five-second cycle. And he
did so even though he conceded that Graves was nonresponsive and might have been in shock—just as he
speculated he himself would have been had he just
been shot in the face with an AR-15.
After the incident, Graves was charged with Assault
with Intent to Commit Murder for the attack on his
grandmother. He was ultimately found not guilty by
reason of insanity.
As a result of the shooting, Graves is completely
blind in his right eye. His face is severely disfigured.
He no longer has a right cheekbone and his sinus
cavity is exposed through a void in his palate. His nose
remains broken, and resultingly, his right nostril has
caved in and will not permit air to flow to his lungs. He
suffers from headaches and constant jaw pain.
2.

Procedural History

On July 7, 2017, Graves filed a civil complaint
seeking damages and injunctive relief under § 1983.
Relevant here, he alleged that defendants Hedger,
Myers, and Potratz unreasonably used excessive force
against him in violation of the Fourth Amendment.
Defendants sought summary judgment, arguing that
the uses of force were objectively reasonable, and that
defendants were protected by qualified immunity. On
October 10, 2018, the district court granted defendants’
motion and entered judgment in favor of defendants.
Graves filed a timely notice of appeal.

App. 9
II. ANALYSIS
A government actor is entitled to qualified
immunity “when an official’s conduct ‘does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.’” White
v. Pauly, 137 S. Ct. 548, 551 (2017) (per curiam)
(quoting Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)).
Thus, this court must make two determinations: first,
whether the facts, viewed in the light most favorable to
Graves, allege the deprivation of a constitutional right;
and second, whether that right was clearly established
such that a reasonable official would have known that
his or her actions were unconstitutional. Morgan v.
Fairfield Cty., 903 F.3d 553, 560 (6th Cir. 2018) (citing
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)).
“Courts can address these two elements in any order.”
Id. (citing Pearson v. Callahan, 555 U.S. 223, 236–37
(2009)). This court has explained that summary
judgment in qualified immunity cases is improper
when there are genuine disputes of material fact “as to
whether [an] officer committed acts that would violate
a clearly established right.” Scozzari v. Miedzianowski,
454 F. App’x 455, 462 (6th Cir. 2012) (quoting Vakilian
v. Shaw, 335 F.3d 509, 515 (6th Cir. 2003)). Summary
judgment is also inappropriate where the
reasonableness of an officer’s action depends
ondisputed facts. Id. (citing Leonard v. Robinson, 477
F.3d 347, 355 (6th Cir. 2007)).
Whether a right is clearly established depends on
whether “an officer acting under similar
circumstances . . . was held to have violated the Fourth
Amendment.” White v. Pauly, 137 S. Ct. 548, 552

App. 10
(2017). The Supreme Court has repeatedly emphasized
that “the clearly established right must be defined with
specificity” and not at a “‘high level of generality.’” City
of Escondido v. Emmons, 139 S. Ct. 500, 503 (2019)
(per curiam) (quoting Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018) (per curiam)). The Court has also noted
that this requirement is “particularly important in
excessive force cases” because:
[T]he Court has recognized that it is sometimes
difficult for an officer to determine how the
relevant legal doctrine, here excessive force, will
apply to the factual situation the officer
confronts. Use of excessive force is an area of the
law in which the result depends very much on
the facts of each case, and thus police officers
are entitled to qualified immunity unless
existing precedent squarely governs the specific
facts at issue[.]
Emmons, 139 S. Ct. at 503 (quoting Kisela, 138 S. Ct.
at 1152). Thus, while there need not be “a case directly
on point for a right to be clearly established, existing
precedent must have placed the statutory or
constitutional question beyond debate.” Kisela, 138 S.
Ct. at 1152 (quoting White, 137 S. Ct. at 551 (internal
quotation marks omitted)).
In evaluating whether a challenged act is
reasonable “courts must account for ‘the fact that police
officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that is
necessary in a particular situation.’” Scozzari, 454 F.
App’x at 463 (quoting Graham v. Connor, 490 U.S. 386,

App. 11
397 (1989)). “Nevertheless, ‘the fact that a situation
unfolds relatively quickly does not, by itself, permit
[officers] to use deadly force.’” Id. (quoting Estate of
Kirby v. Duva, 530 F.3d 475, 483 (6th Cir.2008)).
Where, as here, multiple constitutional violations
are alleged, this court analyzes each use of force
separately. Livermore ex rel Rohm v. Lubelan, 476 F.3d
397, 406 (6th Cir. 2007) (“The proper approach under
Sixth Circuit precedent is to view excessive force claims
in segments.”) (citing Gaddis v. Redford Twp., 364 F.3d
763, 772 (6th Cir.2004); Dickerson v. McClellan, 101
F.3d 1151, 1161 (6th Cir. 1996)). This segmented
approach requires courts to “first identify the ‘seizure
at issue’ . . . and then examine ‘whether the force used
to effect that seizure was reasonable in the totality of
the circumstances, not whether it was reasonable for
the police to create the circumstances.’” Id. (quoting
Dickerson, 101 F.3d at 1161).
Graves identifies three separate segments in which
he argues unconstitutionally excessive force was used:
First, the segment in which Hedger pried the door to
the trailer open and either supervised the
unconstitutional use of force and/or failed to protect
Graves against the unconstitutional use of force;
second, the segment in which Myers and Potratz fired
their weapons at Graves; and third, the segment in
which Hedger tased Graves. We address each below.

App. 12
1. Claims Against Hedger for Supervising
Unconstitutional Use of Force and Failing
to Protect Against the Unconstitutional
Use of Force
We begin with the first segment Graves identifies.
When Hedger issued orders that led to a close-quarters
confrontation, Graves argues, Hedger either supervised
the unconstitutional use or force and/or failed to protect
Graves from the unconstitutional use of force. There
are separate tests for supervisory liability and liability
for failure to protect: Supervisory liability, in the
§ 1983 context, requires “more than an attenuated
connection between the injury and the supervisor’s
alleged wrongful conduct.” Peatross v. City of Memphis,
818 F.3d 233, 241 (6th Cir. 2016) (citing Phillips v.
Roane Cty., 534 F.3d 531, 544 (6th Cir. 2008)). Instead,
“supervisory liability requires some ‘active
unconstitutional behavior’ on the part of the
supervisor.” Id. (quoting Bass v. Robinson, 167 F.3d
1041, 1048 (6th Cir. 1999)). Put differently, the failure
to supervise is only actionable if “the supervisor either
encouraged the specific incident of misconduct or in
some other way directly participated in it.” Id. at 242
(citing Shehee v. Luttrell, 199 F. 3d 295, 300 (6th Cir.
1999)). We have “interpreted this standard to mean
that ‘at a minimum,’ the plaintiff must show that the
defendant ‘at least implicitly authorized, approved, or
knowingly acquiesced in the unconstitutional conduct
of the offending officers.’” Id. (quoting Shehee, 199 F.3d
at 300). Liability for failure to protect, meanwhile,
arises when “(1) the officer observed or had reason to
know that excessive force would be or was being used;
and (2) the officer had both the opportunity and the

App. 13
means to prevent the harm from occurring.” Goodwin
v. City of Painesville, 781 F.3d 314, 328 (6th Cir. 2015)
(citing Turner v. Scott, 119 F.3d 425, 429 (6th
Cir.1997)).
Graves maintains that Hedger is liable under both
theories because he knew Graves was in severe
emotional distress, yet nevertheless both ordered
Myers and Potratz to enter the trailer with their
weapons drawn and failed to prevent excessive force by
coordinating with his fellow officers to minimize the
risks. Graves also notes that Hedger’s conduct violated
Monroe County Sheriff’s Office policy.
None of Graves’s arguments are availing. In cases
where we have found supervisory liability for excessive
force, it has been where the government official
ordered, or at least implicitly authorized, the use of
force. See, e.g., Jones v. Sandusky Cty., 541 F. App’x
653, 667 (6th Cir. 2013)). Here, the record shows that
Hedger ordered or authorized only the circumstances
that, perhaps, ultimately led to the use of force; indeed,
Myers and Potratz both testified that the decision to
shoot was their own. Mere creation of the
circumstances in which force is ultimately deployed
does not give rise to a constitutional violation.
Livermore, 476 F.3d at 406.
Graves’s argument that Hedger should be subject to
liability for failure to protect fails for similar reasons.
“Generally speaking, a police officer who fails to act to
prevent the use of excessive force may be held liable
when (1) the officer observed or had reason to know
that excessive force would be or was being used, and
(2) the officer had both the opportunity and the means

App. 14
to prevent the harm from occurring.” Turner v. Scott,
119 F.3d 425, 429 (6th Cir. 1997) (citing Anderson v.
Branen, 17 F.3d 552, 557 (2d Cir. 1994)); see also
Baxter v. Bracey, 751 F. App’x 869, 873 (6th Cir. 2018)).
Nothing in the record establishes that Hedger had
reason to know that Myers and Potratz would
discharge their weapons, and nothing in the record
establishes that Hedger would have had the
opportunity and means to prevent them from
discharging their weapons. We therefore conclude that
the district court properly granted judgment for Hedger
on Graves’s claims for supervisory liability and failure
to protect.
2. Claims Against Myers and Potratz for the
Use of Lethal Force
The next question is whether the district court erred
in determining that Myers and Potratz are entitled to
qualified immunity for their use of lethal force against
Graves. We conclude that it did because the facts,
taken in the light most favorable to Graves, show that
the officers violated a clearly established constitutional
right.
a. Constitutional Violation
Where, as here, a plaintiff alleges a claim of
excessive force in the context of an arrest of a free
citizen, he or she invokes the protections of the Fourth
Amendment to the United States Constitution.
Graham v. Connor, 490 U.S. 386, 394 (1989). The
Fourth Amendment guarantees citizens the right “to be
secure in their persons . . . against unreasonable . . .
seizures. . . .” U.S. Const. amend. IV. Thus, in

App. 15
ascertaining whether a particular use of force violates
the Constitution, the operative question is whether the
forced used was “reasonable” under the circumstances.
Graham, 490 U.S. at 396. The reasonableness test
under Graham is objective and asks “whether the
officers’ actions are objectively reasonable in light of
the facts and circumstances confronting them, without
regard to their underlying intent or motivation.”
Graham, 490 U.S. at 397 (internal quotation marks
omitted). Graham sets out a three-factor test to aid
courts in assessing objective reasonableness. Those
factors are: (1) “the severity of the crime at issue,”
(2) “whether the suspect poses an immediate threat to
the safety of the officers or others,” and (3) “whether he
is actively resisting arrest or attempting to evade
arrest by flight.” Graham v. Connor, 490 U.S. 396, 397
(1989); see also Tennessee v. Garner, 471 U.S. 1, 11
(1985). When it comes to lethal force, we have
emphasized that the “minimum requirement” of
objective reasonableness is that the officer had
“probable cause to believe that the suspect pose[d] a
threat of severe physical harm, either to the officer or
others.” Untalan v. City of Lorain, 430 F.3d 312, 314
(6th Cir. 2005).
The deputies insist that Graves posed an immediate
threat to the safety of those on the scene. But the facts
considered in the light most favorable to Graves tell a
different story. It is true that the first Graham factor
cuts against Graves—Graves was suspected of having
committed a violent crime. But the scene the officers
encountered when they pried open the trailer door was
calm. They did not discover a man who was
brandishing a knife at them; instead, they discovered

App. 16
a man who was—by all accounts—stationary and nonresponsive. Additionally, Graves was incapacitated by
position: he was seated, facing out with his back to the
wall, and his legs were dangling over the side of the
tub.
In the officers’ telling, the lethal threat arose when
Graves raised his hand with a black plastic object in it.
Myers testified that he believed the object in Graves’s
hand was a gun. But a reasonable juror might decline
to credit Myers’s account for at least two reasons. First,
she might find it non-credible because the object in
Graves’s hand was not a gun, bore little likeness to a
gun, and because Myers himself testified that he had
no reason to believe the object was a gun. Second, there
is a genuine dispute of material fact as to the
circumstances under which Myers perceived the
purported threat. In Myers’s telling, he moved a metal
chair from the hallway, started falling, and then fired
his weapon. In Graves’s telling, Myers fired his weapon
and then fell. The district court held this dispute was
not material to the question of qualified immunity, as
the “key fact in this case is that Plaintiff raised his arm
holding a black object to scare the officers before they
fired at him.” (Order, R. 35, PageID 1824). But the
question whether Myers acted reasonably when he shot
at Graves depends on what Myers perceived, and in
Graves’s telling, Myers had a clear line of sight to the
object in Graves’s hand and had not yet begun falling
when he made the decision to use lethal force.
Accepting those facts as true, a reasonable juror could
conclude that it was unreasonable for Myers to perceive
that Graves was holding a gun, and that it was
therefore unreasonable for Myers to shoot Graves.

App. 17
A reasonable juror might have even greater reason
to be skeptical of Potratz’s account due to its material
inconsistencies. In the immediate aftermath of the
shooting, Potratz claimed that he believed Graves held
a gun. Later, during his deposition, he testified he did
not perceive that Graves held a gun, nor did he
perceive that Graves held a knife with a blade. (Potratz
Dep., R. 30-8, PageID 1033 (“Q: My question is, did you
see a knife with a blade, yes or no? A: No. Q: Did you
see a firearm? A: No. Q: Did you think he had a gun? A:
No.”) Potratz believed, in retrospect, that Graves had
been holding a knife—but he conceded that he only
reason he believed that in hindsight was that someone
told him that a knife handle had been found in the tub.
(Id. at PageID 1044). Indeed, Potratz suggested that
Graves could have been holding any object at all and he
still would have fired his AR-15 at Graves: all he knew
was that Graves held an object he perceived to be a
weapon, but he also believed that any object could be a
weapon. (Id. at PageID 1045 (“Q: Okay. You know as
we sit here today that you shot an individual who
didn’t have a weapon in his hand and you shot him in
the face; that’s a fair statement, correct? A: No, because
anything could be a weapon.”).
In short, taking the facts in the light most favorable
to Graves, the officers used lethal force against an
unresponsive, slight, unarmed man who was trapped in
his bathtub. His only movement was to raise his hand,
which contained an object that—taking the facts in the
light most favorable to Graves—the officers perceived
as no more inherently dangerous than a permanent
marker, or a cell phone, or an action figure. Under the
second Graham factor, we must then ask whether it

App. 18
was reasonable for the officers to conclude that on
these facts, Graves posed an objective, immediate, and
severe threat of physical harm. See Untalan, 430 F.3d
at 315.
Our case law is clear: no reasonable officer would
make such a conclusion. In Sample v. Bailey, we held
that it was not reasonable to perceive a serious threat
of physical harm from a suspect who was found in the
same position as Graves: unarmed, silent, and
constrained by position. 409 F.3d 689, 697 (6th Cir.
2005). True, in Sample, the suspect’s hands were
empty, id., but that is a distinction without difference
because, taking the facts in the light most favorable to
Graves, the officers only perceived Graves to be holding
an inert object. Notably, the Sample court reached this
conclusion even though the officers were in the dark
and unfamiliar building, and even though the suspect
had hidden himself in a cabinet. Id. at 699. If it was
unreasonable for officers to perceive a serious physical
threat in Sample, it was even more unreasonable here,
where officers observed Graves, unresponsive, in plain
sight, over the course of 38 seconds. This ends the
constitutional inquiry: because the officers did not have
probable cause to believe that Graves posed an
immediate threat of severe physical harm, the
“minimum requirement” to justify the use of lethal
force is not met. Untalan, 430 F.3d at 314.
Defendants cite a number of cases in service of the
point that they had probable cause to believe that
Graves posed an immediate threat of severe physical
harm. But none have relevance here because every case
involves a suspect who appeared to have a weapon and

App. 19
was capable of inflicting immediate harm on the
officers. See Lemmon v. City of Akron, 768 F. App’x 410,
415 (6th Cir. 2019) (serious and immediate threat
where suspect refused to listen to orders, told police
they would have to shoot him, then reached for his
waistband); Pollard v. City of Columbus, 780 F.3d 395,
403 (6th Cir. 2015) (serious and immediate threat
where potentially armed suspect who engaged in highspeed chase lost consciousness, suddenly regained it,
then made gestures suggesting he had a weapon);
Untalan v. City of Lorain, 430 F.3d 312, 315 (6th Cir.
2005) (serious and immediate threat where suspect
“suddenly burst of the kitchen and lunged at” officers
with a butcher knife). By contrast, this record contains
no such undisputed evidence.
Although the unconstitutionality of the officers’
actions is overdetermined because they did not meet
the minimum requirement for the use of lethal force, it
bears observation that the third factor, too, cuts
against the reasonableness of Potratz’s and Myers’s
actions. Graves was not resisting arrest. Graves, it is
true, did not comply with officers’ repeated commands
to show his hands. But failure to comply with
commands alone “does not indicate active resistance.”
Eldridge v. City of Warren, 533 F. App’x 529, 535 (6th
Cir. 2013).
Thus, the totality of facts and circumstances—
viewed in a light most favorable to Graves— compel the
conclusion that the officers’ use of lethal force was
objectively unreasonable.

App. 20
b. Clearly Established
The next question is whether Myers and Potratz
violated a clearly established right when they
unconstitutionally fired at Graves. A clearly
established right is one that is “sufficiently clear that
every reasonable official would have understood that
what he is doing violates that right.” Reichle v.
Howards, 566 U.S. 658, 664 (2012) (internal quotation
marks and alteration omitted). There need not be a
case “directly on point for a right to be clearly
established,” but “existing precedent must have placed
the statutory or constitutional question beyond debate.”
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (quoting
White v. Pauly, 137 S. Ct. 548, 551 (2017) (internal
quotation marks omitted).
Here, the right of a criminal suspect “not to be shot
unless he [is] perceived to pose a threat to pursuing
officers or to others” has been established since at least
1988. Robinson v. Bibb, 840 F.2d 349 (6th Cir. 1988).
We clarified the breadth of this right in 2005:
“regardless of whether the incident took place at day or
night, in a building or outside, whether the suspect is
fleeing or found, armed or unarmed, intoxicated or
sober, mentally unbalanced or sane, it is clearly
established that a reasonable police officer may not
shoot the suspect unless the suspect poses a perceived
threat of serious physical harm to the officer or others.
These factual distinctions between the cases do not
alter the certainty about the law itself.” Sample, 409
F.3d at 699.
In short: there is, perhaps, a version of events in
which it was reasonable for Myers and Potratz to have

App. 21
shot at Graves. But where the question of qualified
immunity depends on which version of events one
accepts, it is the jury’s province, not ours, to decide the
truth. Sova v. City of Mt. Pleasant, 142 F.3d 898, 903
(6th Cir. 1998). Taking the facts in the light most
favorable to Graves, Myers and Potratz applied lethal
force against a suspect from whom they perceived no
serious physical threat. Those actions violate clearly
established law.
3. The District Court’s Determination that
Hedger is Entitled to Qualified Immunity
for His Use of Non-Lethal Force
The final question is whether the district court
erred in determining that Hedger was entitled to
qualified immunity for tasing Graves seven seconds
after he was shot in the face.
a. Clearly Established
We have clearly established the straightforward
proposition of law that it is objectively “unreasonable to
tase a nonresisting suspect.” Eldridge v. City of
Warren, 533 F. App’x 529, 533 (6th Cir. 2013) (citing
Hagans v. Franklin Cty. Sheriff’s Office, 695 F.3d 505,
509 (6th Cir.2012); see also Rudlaff v. Gillispie, 791
F.3d 638, 642 (6th Cir. 2015) (“A simple dichotomy thus
emerges: When a suspect actively resists arrest, the
police can use a taser (or a knee strike) to subdue him;
but when a suspect does not resist, or has stopped
resisting, they cannot.”); Cockrell v. City of Cincinnati,
468 F. App’x 491, 495–96 (6th Cir. 2012) (collecting
cases). The dissent suggests that this principle is
defined at too high a level of generality. But, as the

App. 22
Supreme Court has repeatedly explained, “general
statements of the law are not inherently incapable of
giving fair and clear warning to officers.” Kisela v.
Hughes, 138 S.Ct. 1148, 1153 (2018) (quoting White v.
Pauly, 137 S.Ct. 548, 552 (2017); see also United States
v. Lanier, 520 U.S. 259, 271 (1997), Anderson v.
Creighton, 483 U.S. 635, 640 (1987). Here, our
precedent provides a simple decisional rule: every
reasonable law enforcement officer in our circuit knows
that to deploy a taser against a non-resisting suspect is
excessive. That the rule is straightforward makes it
more capable of giving fair and clear warning to
officers, not less.
It is also objectively unreasonable to use a taser
against a suspect who previously resisted arrest but
was, at the time the taser was deployed, incapacitated.
Landis v. Baker, 297 F. App’x 453, 464 (6th Cir. 2008).
The dissent identifies a limited exception to this rule
where the uncontested facts establish that an officer
deployed a taser against a suspect who was not
resisting at the moment, but had been resisting
immediately prior, and—but for the use of a taser—was
expected to continue resisting in a manner that would
have justified the later use of lethal force. Russo v. City
of Cincinnati, 953 F.2d 1036, 1045 (6th Cir. 1992).
Under such circumstances, we have concluded than an
officer is entitled to qualified immunity because the
actions “were intended to avoid having to resort to
lethal force.” Id. The record does not support the
application of this exception here for at least two
reasons because lethal force had already been applied
against Graves—twice—at the time Hedger deployed
his taser and it is a genuine dispute of material fact

App. 23
whether it was reasonable to perceive Graves as posing
a continued threat.
b. Constitutional Violation
The question, then, is whether the facts viewed in
a light most favorable to Graves establish that he was
not resisting arrest. The district court correctly held
that the disputed question whether Hedger ordered
Graves to show his hands was “not material to the legal
analysis[.]” (Opinion, R. 35, PageID 1825–26). This is
so because—even if Hedger had ordered Graves to
show his hands—the failure to comply with that order
does not constitute “active resistance” and therefore is
not a sufficient basis upon which to justify use of a
taser. Eldridge v. City of Warren, 533 F. App’x 529, 535
(6th Cir. 2013).
Where the district court faltered in its analysis was
its conclusion that use of the taser was nevertheless
reasonable because the threat from Graves, as a matter
of law, had not been “clearly abated.” (Opinion, R. 35,
PageID 1825–26). In reaching this conclusion, the
district court emphasized that when Hedger saw Myers
fall, “he thought Myers had been shot and that Plaintiff
had a gun.” (Id., PageID 1825). But it failed to note
that, by the time Hedger tased Graves, Hedger had
confirmed that Myers had not, in fact, been shot. And
we cannot conclude, based on the record before us, that
it was reasonable for Hedger to fire his taser at Graves
because he was under the mistaken belief that Graves
had fired his weapon at Myers but missed. The dissent
emphasizes that Hedger heard Myers yell “Not hit. Not
hit. Shots fired” (R. 30-15, PageID 1415), concluding
that Myers’s words “naturally give[] rise to the

App. 24
inference that someone had shot at Myers and missed.”
Not so: there is no record basis to conclude that Myers
was not referring to the discharge of his own weapon.
And—even setting aside the impropriety of drawing
such inferences against Graves—it is undisputed that
Hedger had seven seconds to survey the scene after the
shots were fired and mentally process that Myers was
unharmed and that Graves had been shot in the face
and was nonresponsive, immobile, and not brandishing
a gun. Hedger testified:
Q: And you have no doubt in your mind at
this point in time he took a bullet to the
side, the right side of his face?
A: Oh, that was clear.
Q: Yeah, there is blood all over?
A: His face was hanging off.
Q: So what do you do then?
A: I ordered to see his hands again.
Q: Okay. He was nonresponsive, right?
A: He hadn’t been responsive the whole
time.
(Hedger Dep., R. 30-3, PageID 575). Indeed, Hedger
conceded that he would likely have been in shock had
he sustained the injuries that Graves had just
sustained. A reasonable jury could therefore conclude
that, whatever threat Graves had ever arguably posed
to the officers, it had abated during the seven-second
span in which he was bloodied and nonresponsive. And

App. 25
if a jury so-concluded, the law of this circuit clearly
would prohibit Hedger’s use of a taser.
III. CONCLUSION
For the foregoing reasons, we affirm the district
court’s order dismissing the claims against Sergeant
Hedger for supervisory liability and for failure to
protect against the use of force. We reverse the district
court’s order as to the individual liability claims
against Sergeant Hedger, Deputy Myers, and Deputy
Potratz, and remand to the district court for further
proceedings consistent with this opinion.

App. 26
LARSEN, Circuit Judge, concurring in part and
dissenting in part. In qualified immunity cases, our
ultimate inquiry is not whether the officers in question
acted reasonably; it is instead whether existing law
established “beyond debate” that they acted
unreasonably. City of Escondido v. Emmons, 139 S. Ct.
500, 504 (2019) (per curiam) (quoting District of
Columbia v. Wesby, 138 S. Ct. 577, 581 (2018)). And
although we must construe the facts in the light most
favorable to Graves, the objective reasonableness of the
officers’ actions is “a pure question of law” that is for
the court to decide, not a jury. Scott v. Harris, 550 U.S.
372, 381 n.8 (2007). Applying these principles, I agree
with the majority that Hedger is entitled to qualified
immunity for Graves’ claims that he is liable for
supervising an unconstitutional use of force and failure
to protect.
I disagree, however, with the majority opinion’s
denial of qualified immunity to the three officers for
their uses of force. Even under the version of the facts
most favorable to Graves, it is clear that Myers and
Potratz perceived that Graves was brandishing a
dangerous weapon when he was only six to eight feet
away from Myers. No existing precedent establishes
that the use of lethal force under these circumstances
is excessive; they are therefore entitled to qualified
immunity. Hedger is also entitled to qualified
immunity for his use of a taser. In his case, not only is
there no controlling authority that “squarely governs
the specific facts at issue,” Emmons, 139 S. Ct. at 503,
but binding circuit precedent affirmatively establishes
that an officer who uses a taser—and even lethal
force—in analogous circumstances is entitled to

App. 27
qualified immunity. I therefore join Part II.1 of the
majority opinion and respectfully dissent from Parts
II.2 and II.3.
I.
Qualified “immunity protects all but the plainly
incompetent or those who knowingly violate the law.”
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (quoting
White v. Pauly, 137 S. Ct. 548, 551 (2017) (per curiam)).
It “attaches when an official’s conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.”
Emmons, 139 S. Ct. at 503 (quoting Kisela, 138 S. Ct.
at 1152). “An officer ‘cannot be said to have violated a
clearly established right unless the right’s contours
were sufficiently definite that any reasonable official in
the defendant’s shoes would have understood that he
was violating it.’” Kisela, 138 S. Ct. at 1153 (quoting
Plumhoff v. Rickard, 572 U.S. 765, 778–79 (2014)).
Defining clearly established rights with specificity
“is particularly important in excessive force cases,”
since “the result depends very much on the facts of
each case.” Emmons, 139 S. Ct. at 503 (quoting Kisela,
138 S. Ct. at 1153). “[G]eneral rules” cannot provide
officers with sufficiently clear warning “outside an
‘obvious case.’” Kisela, 138 S. Ct. at 1153 (quoting
White, 137 S. Ct. at 552); see also Wesby, 138 S. Ct. at
590 (noting that such “obvious case[s]” are “rare”).
Instead, “police officers are entitled to qualified
immunity unless existing precedent squarely governs
the specific facts at issue.” Emmons, 139 S. Ct. at 503
(quoting Kisela, 138 S. Ct. at 1153). Existing precedent
cannot squarely govern unless there is “controlling

App. 28
authority” or “a robust ‘consensus of cases of persuasive
authority’” addressing the question. Ashcroft v. alKidd, 563 U.S. 731, 742 (2011) (quoting Wilson v.
Layne, 526 U.S. 603, 617 (1999)); accord Latits v.
Phillips, 878 F.3d 541, 552 (6th Cir. 2017).
Because this case arises on summary judgment, we
must “construe all of the facts in the record ‘in the light
most favorable’ to” Graves as the nonmoving party.
Schreiber v. Moe, 596 F.3d 323, 332 (6th Cir. 2010)
(quoting Champion v. Outlook Nashville, Inc., 380 F.3d
893, 901 (6th Cir. 2004)). “Once we have done so,”
however, “‘the question whether [the officers’] actions
were objectively unreasonable is a pure question of
law’” that is for us, not a jury, to decide. Id. (quoting
Chappell v. City of Cleveland, 585 F.3d 901, 909 (6th
Cir.2009)). Moreover, because this is a matter of
qualified immunity, our ultimate inquiry is not
whether the officers’ perceptions and actions were
reasonable but whether it is “beyond debate” that they
were reasonable. See Emmons, 139 S. Ct. at 504
(quoting Wesby, 138 S. Ct. at 581).
II.
The majority does not claim that Myers and Potratz
would have violated a clearly established right if they
had reason to believe that Graves was holding a gun,
knife, or other dangerous weapon when they fired at
him. Nor could it—if the officers had reason to believe
that Graves was holding a dangerous weapon, they are
surely entitled to qualified immunity. The majority
instead claims that, under the interpretation of the
facts most favorable to Graves, all reasonable officers
in Myers’ and Potratz’s position would have known that

App. 29
the object in Graves’ hand was harmless. The record,
however, just does not bear this conclusion out.
Myers. Seconds after the shooting took place, Myers
told his fellow officers, “He had a gun whatever it was.”
Police Video Transcript, R. 30-15, PageID 1416. While
Hedger was still searching Graves for the object that
was in his hand, Myers reiterated, “It’s a small
handgun, right hand.” Id. at PageID 1417. After Graves
had been secured and Hedger confirmed that the object
was a knife handle, Myers said, “Black is what I saw,
black and coming right at me. . . . I could have swore it
was just a little like a Derringer almost. What it came
across as.” Id. at PageID 1419–20. Myers reiterated
that he had believed the object in Graves’ hand was a
gun at his deposition testimony. He testified, “From
behind his back [Graves] came at me with a—what I
perceived as a handgun, it was black handled with
silver glint to the front of it.” Myers Dep., R. 30-10,
PageID 1258; accord id. at PageID 1261 (“He took his
right hand from behind his back and raised a black
handled metal object with metal towards the front of it
at me as if he was pointing a pistol directly at my
head. . . . I believed it was a gun, yes, sir. . . . I believed
it was a gun, sir.”).
The majority offers three reasons why a jury might
not credit Myers’ statements: “the object in Graves’s
hand was not a gun,” the object “bore little likeness to
a gun,” and “Myers himself testified that he had no
reason to believe the object was a gun.” Maj. Op. at 12.
None of these reasons withstands scrutiny.
The majority’s third claim is plainly not true. Myers
testified that he believed the object in Graves’ hand

App. 30
was a gun and explained his reason for this belief: it
looked like a gun in that it appeared to be “a black
handled metal object with metal towards the front of
it.” The majority relies on an earlier statement in
Myers’ deposition where Graves’ attorney asked Myers,
“And you had no reason to believe he had a gun?”
Myers responded, “I had no knowledge that he had one,
that’s correct.” Myers Dep., R. 30-10, PageID 1257.
Myers made this statement in the context of a series of
questions about his intent in approaching the bathroom
and moving a chair that obstructed his path in the
hallway. Myers had not yet discussed the object in
Graves’ hand or what he perceived it to be. Instead
Myers was testifying that at the time he approached
the bathroom, but before he saw the object in Graves’
hand, he had no reason to believe Graves had a gun:
Q.

And it was your intent to talk him out?

A.

That is correct.

Q.

Negotiate him out of there?

A.

Yes, sir.

Q.

And I take it to be safe—you were concerned
he might have a weapon?

A.

Yes, sir.

Q.

You had heard about a knife?

A.

Yes, sir.

Q.

So you were concerned he might have a
knife?

App. 31
A.

I was concerned he might have a weapon,
yes, sir.

Q.

Okay. You hadn’t heard anything about
guns?

A.

That’s correct.

Q.

Okay. And you had no reason to believe he
had a gun?

A.

I had no knowledge that he had one. That’s
correct.

...
Q.

And you fall. . . . And then as you fell what
happened next?

A.

From behind his back he came at me with
a—what I perceived as a handgun, it was
black handled with silver glint to the front of
it.

Id. at PageID 1256–58. Myers therefore never
contradicted his own statements that he believed
Graves was holding a gun.
That the object in Graves’ hand was not in fact a
gun cannot on its own be a sufficient basis for a jury to
conclude that Myers did not believe Graves had a gun
or for the court to conclude that Myers was clearly
unreasonable for believing Graves had a gun. If that
were so, we would have to deny qualified immunity in
every case in which police officers used lethal force
against a suspect who turned out to be unarmed. That
would be contrary to our caselaw. See, e.g., Mullins v.

App. 32
Cyranek, 805 F.3d 760, 768–69 (6th Cir. 2015); Pollard
v. City of Columbus, 780 F.3d 395, 403 (6th Cir. 2015).
Instead, Myers is entitled to qualified immunity if it is
at least debatable that he “had probable cause to
believe [Graves] posed a serious threat.” Pollard, 780
F.3d at 403.
That leaves the majority’s contention that the object
in Graves’ hand “bore little likeness to a gun.” What
object does the majority have in mind when it makes
this claim? Does it mean the bladeless handle of the
knife Graves used to stab his grandmother or the comb
Graves claimed to be holding? Although the majority is
not explicit, the factual record and proceedings below
make clear that the object can only be the knife handle.
Graves admitted before the district court that the
object in his hand was “the black plastic broken handle
of the knife whose blade his grandmother had broken
off.” Response to Motion for Summary Judgment, R. 30,
PageID 454. He expressly stated that this point was
“not disputed.” Id.
Despite this concession, the majority nevertheless
finds that the “record is not clear as to what the item
was.” Maj. Op. at 5. But even if we were to overlook
Graves’ express concession of this point, no genuine
dispute of fact exists. Although Graves believed that he
was holding a comb, it is undisputed that he was
hallucinating at the time, and as Graves’ counsel
admitted at oral argument, the only object found in the
bathtub was the knife handle. Since Graves’ testimony
“is blatantly contradicted by the record, so that no
reasonable jury could believe it,” we “should not adopt

App. 33
that version of the facts for purposes of ruling on a
motion for summary judgment.” Scott, 550 U.S. at 380.
A photograph of the knife handle is in the record. R.
30-25, PageID 1785. The photo reveals that the knife
handle is black with metal rivets of a silver color along
the side. Id. The physical evidence thus provides no
basis for a reasonable jury to disbelieve Myers’
testimony that he saw Graves lift up a black-handled
object with a silver glint and that he inferred from this
perception that the object was a gun. See Chappell, 585
F.3d at 910 (accepting as true at the summary
judgment stage officers’ testimony as to their
perceptions and subjective beliefs because the
testimony was not “refuted by physical or
circumstantial evidence” or “disputed by contrary
testimony”).
Whether it was reasonable for Myers to make this
inference is of course a “pure question of law,” not a
jury question. Scott, 550 U.S. at 381 n.8; Schreiber, 596
F.3d at 332. The majority concludes that it is beyond
debate that Myers’ inference was unreasonable because
the object in Graves’ hand bore little resemblance to a
gun and because, on the view of the facts most
favorable to Graves, Myers was standing upright from
six to eight feet away with “a clear line of sight to the
object” when he fired. Maj. Op. at 13. I do not see how
the majority can arrive at this conclusion. Even if he
were standing upright with a clear line of sight, Myers
still had only a fraction of a second to determine
whether the black object with a silver metallic glint
that Graves had suddenly lifted into the air was a gun.
A bladeless knife handle is an unusual object; it is not

App. 34
the sort of thing that can easily be recognized in an
instant when it suddenly and unexpectedly comes into
view. And if the knife handle had actually been a gun,
an extra moment’s hesitation could have been lethal. I
am certainly not in a position to say that Myers’
inference in the heat of the moment was unreasonable,
let alone that every reasonable officer in Myers’
position would have known the object was not a gun.
But that is the standard the law requires to deny
Myers qualified immunity. Wesby, 138 S. Ct. at 590.
Our precedents have repeatedly warned that “[t]he
‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight.” Graham v. Connor, 490 U.S. 386, 396
(1989). “What constitutes ‘reasonable’ action may seem
quite different to someone facing a possible assailant
than to someone analyzing the question at leisure.”
Boyd v. Baeppler, 215 F.3d 594, 602 (6th Cir. 2000)
(quoting Smith v. Freland, 954 F.2d 343, 347 (6th Cir.
1992)). We must not substitute our “own personal
notions—about what might have been, could have been,
or should have been—in a ‘sanitized world of . . .
imagination’ quite unlike the dangerous and complex
world where [Myers was] required to make an
instantaneous decision.” Chappell, 585 F.3d at 912
(first alteration in original) (quoting Boyd, 215 F.3d at
602). “Rather, we must adopt a ‘built-in measure of
deference to the officer’s on-the-spot judgment about
the level of force necessary in light of the circumstances
of the particular case.’” Mullins, 805 F.3d at 766
(quoting Burchett v. Kiefer, 310 F.3d 937, 944 (6th Cir.
2002)). If the majority’s conclusion that it was clearly

App. 35
unreasonable for Myers to believe that Graves had a
gun because he should have been able to see better is
not an improper substitution of hindsight for an
officer’s on-the-spot judgment, what is?
The majority identifies no case where we have held,
on similar facts, that an officer’s belief that a suspect
was holding a gun was unreasonable. This is no
surprise, because we have never expected officers to
adhere to such an exacting standard for distinguishing
guns from objects that merely look like guns within a
fraction of a second. Instead, we have held, for
instance, that officers had probable cause to believe
that a suspect was holding a gun when he merely
“clasped his hands in a shooting posture.” Pollard, 780
F.3d at 400. If an officer on the scene can have probable
cause to perceive a threat when a suspect’s bare hands
are clasped together as if they were a gun, he surely
has probable cause when a suspect suddenly pulls out
a black-handled object with a silver metal glint.
Accordingly, even construing the facts in the light most
favorable to Graves, it is “at least arguable,” Reichle v.
Howards, 566 U.S. 658, 669 (2012), that an officer in
Myers’ position would have reason to believe that
Graves posed an imminent threat to his life and safety.
I would therefore hold that he is entitled to qualified
immunity.
Potratz. In the immediate aftermath of the shooting,
Potratz told the other officers that he believed Graves
was holding a gun. Police Video Transcript, R. 30-15,
PageID 1416, 1419. He also said to Myers, “I—he was
coming right at you, I had to shoot him. He was coming
right at you.” Id. at PageID 1420. At his deposition,

App. 36
however, Potratz testified that at the moment he fired
his weapon he did not “think [Graves] had a gun.”
Potratz Dep., R. 30-8, PageID 1033. Instead, he stated
that “[a]t the time with the item that he was coming up
with, it appeared to be a knife to me.” Id. In response
to follow-up questions, he repeated that he believed the
object in Graves’ hand to be “a weapon” without
specifying further. Id. at PageID 1039. Potratz further
testified that he shot Graves because “I thought he was
going to injure my partner [Myers].” Id. at PageID
1038.
Potratz clearly contradicted himself on the point of
whether he believed Graves was holding a gun; thus, a
reasonable jury could certainly conclude that Potratz
did not believe that Graves had a gun. Potratz
nevertheless consistently stated that he believed
Graves was holding a weapon of some kind that posed
a threat to Myers and that he fired at Graves to protect
Myers. There is no basis in the record for a jury to
conclude that Potratz could see that the object in
Graves’ hand was harmless, and it would be pure
speculation to conclude that Potratz knew that Graves
was holding a bladeless knife handle. Construing the
facts in the light most favorable to Graves, we must
assume that Potratz either believed the object in
Graves’ hand was only a knife or believed the object
was a weapon of some kind without having a good
sense of what exactly the object was, and we must
assume that Potratz believed that, whatever weapon he
had, Graves posed a serious threat to Myers’ safety.
The majority concludes that a jury could find that
Potratz did not believe that Graves had anything

App. 37
genuinely dangerous in his hand. This is so, according
to the majority, for two reasons. First, the majority
claims, Potratz admitted that at the moment he fired
his gun he did not believe the object in Graves’ hand
was a knife. Indeed, he only believed the object to have
been a knife in hindsight, because someone had told
him about the knife handle found in the tub after the
fact. Second, the majority believes Potratz suggested in
his deposition that he would have shot Graves even if
Graves had “been holding any object at all.” Maj. Op. at
13. As was the case with Myers, these findings stem
from a misreading of Potratz’s deposition testimony.
For its first point, the majority relies on a portion of the
deposition where Potratz was asked, “My question is
did you see a knife with a blade, yes or no?” Potratz
responded, “No.” Potratz Dep., R. 30-8, PageID 1033.
The majority overlooks, however, that in context
Potratz was testifying that even though he perceived
the object in Graves’ hand to be a knife, the object was
not in fact a knife:
Q.

Okay. Did you see a knife?

A.

Yes.

Q.

Did you see a blade of a knife—strike that.
Did you see a knife with a blade?

A.

At the time with the item that he was coming
up with, it appeared to be a knife to me.

Q.

I didn’t ask what you what it appeared at the
time. Did you see a knife?

App. 38
MR. FIELD
[Potratz’s attorney]:
MR. PALMER
[Graves’ attorney]:

He just testified to what he
saw.
He testified to what He saw
but he didn’t answer my
question.

BY MR. PALMER:
Q.

My question is did you see a knife with a
blade, yes or no?

A.

No.

Id. Similarly, Potratz never testified that he only
believed the object in Graves’ hand was a knife after
the fact. In the above-quoted passage, he testified that
he believed the object was a knife at the time he fired.
He was later asked why he had come to believe, by the
time of his deposition, that the object was a bladeless
knife handle. Potratz responded that he was told after
the fact:
Q.

Okay. And the only reason you believe it’s a
knife handle was because someone told you
they found these knife handles around,
correct?

A.

Sitting here today?

Q.

Yeah.

A.

Fair to say.

Id. at PageID 1044. There is therefore no basis in the
record for concluding that Potratz could see that the

App. 39
object in Graves’ hand was not a knife at the moment
that he fired.
As to the majority’s second point, Potratz testified
that he did not think it was fair to say that he had shot
an unarmed man. See id. at 1045 (“Q. Okay. You know
as we sit here today that you shot an individual who
didn’t have a weapon in his hand and you shot him in
the face; that’s a fair statement, correct? A. No, because
anything could be a weapon.”). But Potratz never
claims that he would have still shot Graves if he had
known that the object was just the bladeless handle of
a knife, let alone “any object at all.” The majority’s
conclusion only follows if we can attribute to Potratz
the premise that it is always acceptable to shoot a
suspect who has any weapon, but Potratz never made
a statement of that sort. In any event, our inquiry is
not whether Potratz would have acted unreasonably if
he had perceived something different, but whether he
in fact acted unreasonably in light of what he actually
perceived.
We have never held that an officer must identify the
kind of weapon a suspect is brandishing with specificity
before he can have probable cause to conclude that the
suspect poses an immediate, serious threat to others.
Instead we look to “the totality of the circumstances” to
see whether an officer’s use of force was reasonable—or
at least debatably reasonable. Reich v. City of
Elizabethtown, 945 F.3d 968, 978 (6th Cir. 2019). It is
undisputed that Graves had stabbed his grandmother
in the head not forty minutes prior and that Potratz
could not see Graves’ hands until he suddenly lifted the
knife handle into the air. It is also undisputed,

App. 40
although the majority makes no mention of it, that
Graves brandished the knife handle in a threatening
manner. Graves himself testified that he lifted up the
knife handle (which he believed to be a comb) in order
“to scare” the officers. Graves Dep., R. 30-24, PageID
1743. Graves also agreed that he “point[ed] the comb at
them like it was a knife.” Id. at PageID 1754. Myers
was only six to eight feet away from Graves. Under
these circumstances, it was at least arguably
reasonable for Potratz to conclude that Graves was
brandishing a dangerous weapon that he could use to
strike and harm Myers, even if he could not identify
with precision what kind of weapon Graves appeared
to be holding.
As with Myers, the majority identifies no case
where we have similarly second-guessed the
reasonableness of an officer’s belief that a suspect was
brandishing a dangerous weapon. Although the
majority relies on Sample v. Bailey, that case is
inapposite because there the plaintiff’s “hands were
visible and empty.” 409 F.3d 689, 697 (6th Cir. 2005).
The plaintiff in Bailey never brandished any object in
an effort to scare off the officers who eventually shot
him. Id.
Because it is at least debatable that Potratz had
reason to believe Graves was brandishing a dangerous
weapon, he is entitled to qualified immunity. Myers
was only six to eight feet away from Graves at the
moment Graves sought to scare the officers off by
lifting up the knife handle. Even though Graves would
have had to get up out of the bathtub to reach Myers,
it would not violate clearly established law for Potratz

App. 41
to conclude that Graves posed an imminent threat to
Myers’ safety. “There is no rule that officers must wait
until a suspect is literally within striking range,
risking their own and others’ lives, before resorting to
deadly force.” Reich, 945 F.3d at 982. We have upheld
qualified immunity for officers who used lethal force
against knife-wielding suspects who were either much
farther away or impeded by a more significant obstacle.
See id. at 981 (suspect twenty-five to thirty-six feet
away); Stevens-Rucker v. City of Columbus, 739 F.
App’x 834, 837, 841–42 (6th Cir. 2018) (suspect six to
eight feet away with a fence between the officer and the
suspect). Accordingly, I would hold that Potratz is
entitled to qualified immunity as well.
III.
Hedger’s use of a taser is not a close question. The
majority fails to appreciate the level of danger that a
reasonable officer in Hedger’s position could have
perceived. It then defines the clearly established rights
at issue too abstractly and improperly applies 20/20
hindsight to Hedger’s decisionmaking. This leads to an
outcome contrary to binding circuit precedent.
Hedger could not see Graves at the moment of the
shooting or in the few seconds immediately preceding
it because he was standing in the hallway two feet
behind Myers. He saw Myers fall and initially believed
that Myers had been shot. Myers then shouted, “Not
hit. Not hit. Shots fired.” Police Video Transcript, R.
30-15, PageID 1415. As the majority notes, Myers’
statement that he was “not hit” made clear that he had
not been harmed, but as Graves’ counsel admitted at
oral argument, the statement naturally gives rise to

App. 42
the inference that someone had shot at Myers and
missed. Thus, although he knew that Myers was
unharmed, Hedger still had reason to believe that
Graves had a gun and had fired it. Considering the
Graham factors, Hedger reasonably could have
believed that Graves (1) had attempted homicide, (2)
posed an imminent threat to the lives of the officers
under Hedger’s command, and (3) was resisting arrest
with lethal force. See 490 U.S. at 396. Use of a taser
would undoubtedly be proportionate under these
circumstances.
The majority asserts that we ought not to take into
account the inference Hedger could naturally make
from Myers’ statement that he was not hit because
“there is no record basis to conclude that Myers was
not referring to the discharge of his own weapon.” Maj.
Op. at 18. But what Myers subjectively sought to
communicate is irrelevant to our inquiry. The question
we must answer is whether it would be reasonable for
an officer in Hedger’s position to infer that Graves had
shot at Myers. Again, “[t]he reasonableness of officer
conduct in excessive-force cases is a question for the
court,” McKenna v. Edgell, 617 F.3d 432, 441 (6th Cir.
2010), that in the qualified-immunity context requires
us to defer to the officer’s decision unless it is beyond
debate that the decision was unreasonable. It is not a
question for the jury that we must construe in the light
most favorable to Graves.
Once Hedger turned into the bathroom and saw
that Graves’ face had been injured, the question
becomes whether it is beyond debate that any
reasonable officer in Hedger’s position would have

App. 43
realized that his initial belief that Graves had a gun
was mistaken or that any threat from Graves had
abated. Hedger knew Graves had been shot when he
saw him, but this fact does not negate probable cause
to believe Graves had a gun. There were multiple
gunshots, and it is entirely plausible that if Graves had
fired, Potratz, who was covering Graves with a rifle,
would fire in return. Moreover, Myers’ statement—“Not
hit. Not hit. Shots fired.”—which Hedger had just a few
seconds to process, reasonably implied that Myers had
been the target. According to Hedger’s testimony, he
could not see Graves’ hands and was not able to
confirm that there was no gun until he got very close to
the bathtub, after tasering Graves. A reasonable officer
in his position could therefore still believe that Graves
had a gun, and was capable of firing it, even after
seeing his maimed face. Even if some reasonable
officers in Hedger’s situation might have believed
otherwise, officers “will not be liable for mere mistakes
in judgment.” Butz v. Economou, 438 U.S. 478, 507
(1978).
It is not clear that a suspect who possesses a
firearm poses no threat just because he has been
seriously wounded. And, in any event, our precedent
has granted qualified immunity to an officer who used
a taser in similar circumstances. In Russo v. City of
Cincinnati, officers shot a suspect who had come
toward them with a knife several times. 953 F.2d 1036,
1040 (6th Cir. 1992). The suspect fell down six or seven
steps, id., and then an officer tasered him “while he lay
at the bottom of the stairwell,” id. at 1045. We held
that the officer was entitled to qualified immunity even
though “at this point [the suspect] posed no immediate

App. 44
threat to the officers.” Id. Just a few seconds earlier,
the suspect had posed an imminent threat to the safety
of the officers, and the officer’s use of his taser was
“intended to avoid having to resort to lethal force.” Id.
Hedger likewise used his taser with the intention of
subduing Graves without the use of lethal force.
Hedger is, if anything, more clearly entitled to qualified
immunity than the officer in Russo. The suspect in
Russo was clearly armed only with a knife, whereas
Hedger had reason to believe Graves was armed with
a gun. And Hedger only tasered Graves once, but the
officer in Russo tasered the suspect multiple times. Id.
Hedger is therefore entitled to qualified immunity
under Russo.
Russo holds that an officer is entitled to qualified
immunity when he uses nonlethal force in an effort to
deescalate a situation where seconds prior he
reasonably believed a suspect posed a lethal threat,
even if, in hindsight, the suspect no longer posed a
threat. The majority reads Russo to apply only where
“but for the use of a taser,” a suspect would be
“expected to continue resisting in a manner that would
have justified the later use of lethal force.” Maj. Op. at
17. But the majority fails to identify any respect in
which the officer in Russo had more reason to believe
that there was a continuing threat than Hedger did.
The majority identifies one fact that supposedly
distinguishes the present case from Russo—“lethal
force had already been applied against Graves—
twice—at the time Hedger deployed his taser.” Id. But
this is also true of Russo; at the moment he was
tasered, the suspect in Russo had already been shot
“several times” and had fallen down a flight of stairs.

App. 45
953 F.2d at 1040. Even as the majority reads the case,
Russo establishes that Hedger is entitled to qualified
immunity.
Furthermore, we have held that officers who used
even lethal force under similar circumstances were
entitled to qualified immunity. As shown above, when
Hedger heard the gunshots, he had reason to believe
that Graves posed an imminent, mortal threat to the
officers under his command, which would have made
the use of lethal force in response proportionate. Since
we do not judge officers’ actions “with the 20/20 vision
of hindsight,” Graham, 490 U.S. at 396, that
justification for lethal force did not disappear in the
moments between when Hedger heard the gunshots
and when he tasered Graves. We have held that
“[w]ithin a few seconds of reasonably perceiving a
sufficient danger, officers may use deadly force even if
in hindsight the facts show that the persons threatened
could have escaped unharmed.” Untalan v. City of
Lorain, 430 F.3d 312, 315 (6th Cir. 2005); see, e.g.,
Rush v. City of Lansing, 644 F. App’x 415, 423 (6th Cir.
2016) (upholding qualified immunity where an officer
shot a knife-wielding suspect in the stomach, the
suspect slumped backward, and the officer shot her in
the head a few seconds later); Mullins, 805 F.3d at
763–64 (upholding qualified immunity where an officer
threw an armed suspect to the ground, the suspect
threw his gun over the officer’s shoulder, and the
officer shot the suspect twice within five seconds);
Untalan, 430 F.3d at 315 (upholding qualified
immunity where a suspect was shot after dropping a
knife “a few seconds” prior). It follows a fortiori that
Hedger’s use of nonlethal force seven seconds after he

App. 46
heard gunshots was not excessive under clearly
established law. The majority does not even attempt to
grapple with these precedents.
The majority reaches a contrary conclusion only by
“defin[ing] clearly established law at a high level of
generality,” which the Supreme Court “has repeatedly
told courts . . . not to” do. Emmons, 139 S. Ct. at 503
(quoting Kisela, 138 S. Ct. at 1152). The majority cites
caselaw for the proposition that an officer may not
taser an unresisting suspect or a suspect who, although
formerly resisting arrest, is now incapacitated. But the
majority makes no effort to analogize Hedger’s use of a
taser to the facts of any prior precedent. “That is a
problem” because, outside of “the rare obvious case,” we
must “identify a case where an officer acting under
similar circumstances was held to have violated the
Fourth Amendment.” Id. at 504.
The majority protests that “every reasonable law
enforcement officer in our circuit knows that to deploy
a taser against a non-resisting suspect is excessive,”
Maj. Op. at 17, but that is simply begging the question.
In many cases, whether a suspect qualifies as “nonresisting” will not be obvious, hence the need to find a
case establishing “the violative nature of [the]
particular conduct” at issue. Mullenix v. Luna, 136 S.
Ct. 305, 308 (2015) (per curiam) (quoting al-Kidd, 563
U.S. at 742). Here, Hedger on the one hand could see
that Graves had been shot and was seriously injured
and possibly in shock. On the other hand, he also had
reason to believe that Graves had shot at Myers just a
few seconds prior, still had a gun on his person, and
was possibly still capable of firing it. Whether, under

App. 47
such circumstances, Graves qualified as no longer
resisting is at least debatable, so in the absence of a
case finding a constitutional violation under similar
circumstances, Hedger must be granted qualified
immunity.
None of the cases on which the majority relies
squarely governs the facts of Hedger’s use of a taser. In
Landis v. Baker, an unpublished case that cannot on its
own clearly establish law, an unarmed suspect grabbed
an officer by the throat. 297 F. App’x 453, 456 (6th Cir.
2008). Upon being pepper-sprayed and struck with a
baton, the suspect, who was mentally disturbed,
walked off into the woods. Id. The two officers who had
originally encountered the suspect called for backup.
Id. Several minutes went by, and another officer
arrived at the scene. Id. The officers found the suspect
standing in a “water hole” and staring blankly. Id. The
suspect did not respond to the officers’ orders,
and—when he did not comply—the officers converged
on him, beat him ten times with a baton, knocked him
over, and then tasered him five times over the course
of a minute and thirty-seven seconds while he lay face
down in the water. Id. at 457. The suspect ultimately
drowned. Id. at 458.
These facts simply do not look like the tasering of
Graves. Although the suspect in Landis had previously
resisted arrest, several minutes had passed, and the
officers had time to form a new plan and regroup. They
knew the suspect was not visibly armed and that they
had him surrounded; they did not have to make a splitsecond decision about whether the suspect’s prior
threat (choking an officer) had abated; it plainly had.

App. 48
Hedger, on the other hand, had no time to step back
and consider whether the threat had abated. The
specific principle that we do not second guess officers’
nonlethal use of force when they had reasonably
perceived a threat a few seconds prior must prevail
over the general principle that an officer may not taser
a non-resisting suspect. Additionally, Hedger only
tasered Graves for one five-second charge, the amount
of time he needed to get from the bathroom doorway to
Graves. By contrast, the officers in Landis tasered the
suspect many times in rapid succession while the
suspect lay in a position where tasering could
likely—and did—lead to death.
The remaining precedents the majority cites are not
even remotely analogous. Eldridge v. City of Warren
involved the tasering of an unarmed man suspected of
driving under the influence after he refused to step out
of his car but did not otherwise resist. 533 F. App’x 529,
530–31 (6th Cir. 2013). And neither Cockrell v. City of
Cincinnati, 468 F. App’x 491, 498 (6th Cir. 2012), nor
Rudlaff v. Gillepsie, 791 F.3d 638, 643 (6th Cir. 2015),
held that an officer had violated a constitutional right.
Clearly, none of these cases would have given Hedger
fair notice of how much force he could have
constitutionally used when he reasonably believed that
Graves had shot at one of his fellow officers.
Our precedents show that Hedger’s use of the taser
did not violate a clearly established constitutional
right. Accordingly, I would hold that Hedger is entitled
to qualified immunity.
***

App. 49
I would AFFIRM the district court’s grant of
summary judgment to the officers in its entirety. I
therefore join Part II.1 of the majority opinion and
respectfully dissent from Parts II.2 and II.3.

App. 50

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 17-12227
[Filed: October 10, 2018]
__________________________________________
RONALD GRAVES,
)
)
Plaintiff,
)
)
v.
)
)
SHERIFF DALE MALONE, in his official
)
capacity, and SERGEANT GARY HEDGER, )
DEPUTY KURT POTRATZ,
)
DEPUTY CHARLES MYERS, and
)
DEPUTY MELISSA CRAIN, in their
)
official and individual capacities,
)
)
Defendants.
)
__________________________________________)
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT
In this case alleging excessive use of force in
violation of Fourth Amendment rights, officers
responded to an emergency call from a trailer park

App. 51
where a mentally ill man had apparently stabbed a 70year-old woman, his grandmother. The officers
understood that the suspect, Plaintiff Ronald “Ronnie”
Graves, was “out of his mind” and was thought to be
still inside the grandmother’s trailer.
Indeed, upon approach they located Graves inside
sitting in a bath tub with a blank look on his face. As
they approached, he made a sudden and, in their
estimation, threatening hand gesture toward them
while holding a black object. Believing the item to be a
gun or a knife, two officers fired, inflicting serious but
non-fatal injuries; another officer, thinking Graves may
have been armed, applied a Taser.
Pending before the court is Defendants’ motion for
summary judgment. (Dkt. #25). Plaintiff filed a
response to the motion (Dkt. #30), and Defendant filed
a reply in support of its motion (Dkt. #34). The court
has reviewed the briefing and concludes a hearing is
unnecessary. See E.D. Mich. LR 7.1(f)(2). For the
reasons stated below, the court will grant the motion.
I. BACKGROUND
Except where noted, the following facts are entirely
undisputed. On July 16, 2015, officers from the Monroe
County Sheriff’s Department responded to a 911 call
originating from Oakwood Mobile Home Park. The call
was from Shannon Jones in unit 5, who reported that
her next-door neighbor had been attacked by her
grandson and was bleeding. (Dkt. #30-5). The attack
took place at unit 4, where 70-year old Nancy Hammer
lived with her grandson, Ronnie Graves. (Dkt. #30,
PageID 443–44). Graves had “hit her in the back of the

App. 52
head with a kitchen knife.” (Id., PageID 444). The knife
blade broke off from the handle, and Ms. Hammer took
the blade of the knife away with her when she fled to
her neighbors’ trailer. (Id.).
Among the responders who proceeded to the scene
were Defendants Sergeant Gary Hedger, Deputy Kurt
Potratz, and Deputy Charles Myers. Before their
arrival, Dispatch had relayed to them that Graves had
“stabbed his grandmother in the eye and in the back of
the head,” and had a long history of being emotionally
disturbed and “suicidal, mostly by knife.” (Dkt. #30-5,
PageID 852). In previous calls he had “mention[ed] that
he was going to blow his head off . . . but that he did
not have any guns.” (Id., PageID 852–53). Someone on
the Dispatch recording reported “word that there may
be a second victim unknown on location right now.”
(Id., PageID 850).
Defendant Hedger arrived at the scene first and
requested additional units. (Dkt. #30, PageID 445).
Witnesses informed him that Graves was “probably
high” and “out of his mind.” (Id.). Subsequently,
Defendant Potratz arrived, followed by Defendant
Myers. (Id.). Graves was believed to still be in the
trailer. The officers first entered the northerly end of
the unit, but determined it was “tactically unsafe” to
advance that way because the hallway was very
cluttered. (Id., PageID 447). Myers remained in the
northerly portion of the trailer, while Hedger and
another officer exited. (Id.). Hedger then pried open a
different door to the trailer and located Graves sitting
in a bath tub across from the door with his legs
hanging over the side. (Id., PageID 448). He had a

App. 53
blank look on his face. (Id.). His hands were not in
view. (Dkt. #25-6, PageID 323; Dkt. #30-24, PageID
1742).
At this point, Hedger, Potratz, and another officer
were positioned in sight of Graves. Hedger ordered
Myers, who was still in the northerly area of the
trailer, to come down the cluttered hallway toward
them. (Dkt. #30, PageID 449). Another officer on the
scene told Graves to “put [his] hands up” three times.
(Id., PageID 450). Portratz told this officer to move,
while Potratz had Graves covered with an AR-15 rifle.
(Id.). Myers then yelled at Ronnie to put his hands up,
where he could see them. (Id.). In the span of a second,
Myers stumbled and discharged one shot from his
pistol; Potratz fired two rounds from his rifle. (Id.,
PageID 451–52; Dkt. #25, PageID 187). One of the
bullets hit Graves in the jaw on the right side of his
face. (Dkt. #30, PageID 451). Around five to seven
seconds later, Hedger stunned Graves with his taser.
(Id., PageID 456; Dkt. #25, PageID 188).
Defendants contend that the shots were precipitated
by Graves quickly raising his right hand, which had
remained concealed in the bath tub up to that point, as
though he were raising a gun at Myers. (Dkt. #25,
PageID 187). Both Myers and Potratz perceived it to be
a weapon and fired toward Graves to protect Myers
from being shot or stabbed. (Id., PageID 187–88).
Hedger recounts that he thought Myers had been shot
and deployed his taser at Graves so he could approach
him safely. (Id., PageID 188). Plaintiff confirms that
“around the time of the shooting, Ronnie Graves had
raised his right arm holding the black plastic broken

App. 54
handle of the knife.” (Dkt. #30, PageID 454). In his
deposition, Graves explains that he had been hearing
voices at the time of the incident and thought the
people were there to kill him. (Id., PageID 455–56). He
thought what he had raised in his hand was a comb
and explained that he raised it from his side and
pointed it like a knife at the officers to scare them. (Id.,
PageID 456; Dkt. #25, PageID 189).
Plaintiff brought this suit under 42 U.S.C. § 1983,
asserting Defendants violated his Fourth Amendment
rights by using excessive force. (Dkt. #1). He also
alleged two state claims, which were dismissed without
prejudice. (Dkt. #13). Defendants move for summary
judgment on two bases: (1) that the actions taken by
the officers were objectively reasonable, and (2) that
regardless, the officers are entitled to qualified
immunity. (Dkt. #25).
II. STANDARD
Under Federal Rule of Civil Procedure 56, summary
judgment is appropriate “if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The court considers “whether the
evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 251 (1986). The
evidence, and all reasonable inferences drawn from it,
must be considered in the light most favorable to the
opposing party. Tolan v. Cotton, 134 S. Ct. 1861, 1866
(2014) (quoting Adickes v. S.H. Kress & Co., 398 U.S.
144, 157 (1970)).

App. 55
The movant has the initial burden of
showing—pointing out—the absence of a genuine
dispute as to any material fact; i.e., “an absence of
evidence to support the nonmoving party’s case.” See
Celotex Corp. v. Catrett, 477 U.S. 317, 323, 325 (1986).
The burden then shifts to the nonmoving party, who
must set forth enough evidence to raise at least a
genuine issue of material fact for trial. Laster v. City of
Kalamazoo, 746 F.3d 714, 726 (6th Cir. 2014) (citing
Celotex Corp., 477 U.S. at 324). A dispute is genuine “if
the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Liberty Lobby, 477
U.S. at 248. A “mere ‘scintilla’ of evidence in support of
the nonmoving party’s position is insufficient to defeat
summary judgment.” Tingle v. Arbors at Hilliard, 692
F.3d 523, 529 (6th Cir. 2012) (quoting Liberty Lobby,
477 U.S. at 251).
III. DISCUSSION
Plaintiff asserts claims under 42 U.S.C. § 1983
based on excessive force in violation of his Fourth
Amendment rights. Defendants move for summary
judgment on the basis that the force used by the
officers was objectively reasonable, and even if it was
not, the officers are entitled to qualified immunity.
Since the second argument could render the first moot,
it will be addressed first.
A. Qualified Immunity
Police officers, as government officials performing
discretionary functions, may plead qualified immunity
in suits for damages. Harlow v. Fitzgerald, 457 U.S.
800, 806, 815 (1982) (citing Gomez v. Toledo, 446 U.S.

App. 56
635, 640 (1980)). This affirmative defense shields them
from liability “insofar as their conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.” Id. at
818 (citing Procunier v. Navarette, 434 U.S. 555, 565
(1978); Wood v. Strickland, 420 U.S. 308, 322 (1975)).
When this defense is raised, “the plaintiff bears the
burden of demonstrating that the defendant is not
entitled to qualified immunity.” Livermore ex rel Rohm
v. Lubelan, 476 F.3d 397, 403 (6th Cir. 2007) (citing
Silberstein v. City of Dayton, 440 F.3d 306, 311 (6th
Cir. 2006)).
To defeat Defendants’ claim of qualified immunity,
then, Plaintiff must show that Defendants violated a
clearly established constitutional right at the time of
the incident. Godawa v. Byrd, 798 F.3d 457, 467 (6th
Cir. 2015) (citing Pearson v. Callahan, 555 U.S. 223,
231 (2009)). Courts must “examine the asserted right
at a relatively high level of specificity.” Bletz v. Gribble,
641 F.3d 743, 750 (6th Cir. 2011) (internal citation
omitted). That is, “‘the right’s contours were
sufficiently definite that any reasonable official in [the
defendant’s] shoes would have understood that he was
violating it,’ meaning that ‘existing precedent . . .
placed the statutory or constitutional question beyond
debate.’” City of S.F. v. Sheehan, 135 S. Ct. 1765, 1774
(2015) (quoting Plumhoff v. Rickard, 134 S. Ct. 2012,
2023 (2014); Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2015)). Specifically in the context of a deadly force
case, “immunity should be recognized ‘if officers of
reasonable competence could disagree on the issue.’”
Mullins v. Cyranek, 805 F.3d 760, 765 (6th Cir. 2015)
(quoting Malley v. Briggs, 475 U.S. 335, 341 (1986)).

App. 57
B. Fourth Amendment Right to be Free from
Excessive Force
The constitutional right to be free from the use of
excessive force by law enforcement officers flows from
the Fourth Amendment “right of the people to be
secure in their persons . . . against unreasonable
searches and seizures.” U.S. Const. amend. IV; Graham
v. O’Connor, 490 U.S. 386, 388 (1989). Accordingly,
excessive force claims are analyzed under the Fourth
Amendment’s “reasonableness” standard. Graham, 490
U.S. at 395. This standard calls for an objective
analysis of the officers’ actions, made “in light of the
facts and circumstances confronting them,” and “judged
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Id. at 396–97 (citing Terry v. Ohio, 392 U.S. 1, 20–22
(1968); Scott v. United States, 436 U.S. 128, 137–39
(1978)).
Therefore, the court considers “the fact that, when
faced with ‘rapidly evolving’ and tense situations,
‘police officers are often forced to make split-second
judgments’ in deciding how much force is necessary
given the circumstances.” Godawa, 798 F.3d at 464
(quoting Plumhoff, 134 S. Ct. at 2020). The
reasonableness standard focuses on the specific
moment in time the officer made his decision to use
force and the information he had at that time. Bouggess
v. Mattingly, 482 F.3d 886, 889 (6th Cir. 2007). It does
not consider “whether it was reasonable for the officer
‘to create the circumstances’” and “it does not require
them to perceive a situation accurately.” Thomas v.
City of Columbus, 854 F.3d 361, 365 (6th Cir. 2017)

App. 58
(citing Chappell v. City of Cleveland, 585 F.3d 901,
915–16 (6th Cir. 2009)). Additionally, the standard
“does not require officers to use the best technique
available as long as their method is reasonable under
the circumstances.” Davenport v. Causey, 521 F.3d 544,
552 (6th Cir. 2008) (quoting Dickerson v. McClellan,
101 F.3d 1151, 1160 (6th Cir. 1996)).
1. Reasonableness of Lethal Force
When it comes to lethal force, precedent establishes
that it is objectively reasonable only in situations
where an officer has “probable cause to believe that [a]
suspect poses a threat of serious physical harm, either
to the officer or to others.” Godawa, 798 F.3d at 464
(citing Tennessee v. Garner, 471 U.S. 1, 11 (1985)).
Three factors to consider in determining if an officer
had such probable cause are: “(1) the severity of the
crime at issue; (2) whether the suspect poses an
immediate threat to the safety of the officers or others;
and (3) whether the suspect is actively resisting arrest
or attempting to evade arrest by flight.” Foster v.
Patrick, 806 F.3d 883, 887 (6th Cir. 2015) (quoting
Bouggess, 482 F.3d at 889). Ultimately, however, “[t]he
inquiry requires analyzing the totality of the
circumstances.” Plumhoff, 134 S. Ct. at 2020.
Moreover, the fact that Defendant “was actually
unarmed when he was shot is irrelevant to the
reasonableness inquiry.” Mullins, 805 F.3d at 767.
Indeed, the Sixth Circuit has cited cases from other
Circuits for the propositions that it “do[es] not think it
wise to require a police officer, in all instances, to
actually detect the presence of an object in a suspect’s
hands before firing on him,” and that even an unarmed

App. 59
suspect’s “actions alone could cause a reasonable officer
to fear imminent and serious physical harm.” Id. at 768
(quoting Sigman v. Town of Chapel Hill, 161 F.3d 782,
792 (4th Cir. 1998); Reese v. Anderson, 926 F.2d 494,
501 (5th Cir. 1991)).
2. Reasonableness of Non-Lethal Force
As far as using a taser, the Sixth Circuit has
identified two specific boundaries of its reasonableness
established by case law. On the one hand, “an
individual’s right to be free from a taser is clearly
established when the individual is not actively
resisting arrest or is already detained.” Brown v.
Chapman, 814 F.3d 447, 461–62 (6th Cir. 2016)
(collecting cases). On the other hand, “there is no
clearly established right not to be tasered when a
suspect is actively resisting arrest.” Id. at 461
(collecting cases). The court “adopt[s] a ‘built-in
measure of deference to the officer’s on-the-spot
judgment about the level of force necessary in light of
the circumstances of the particular case.’” Mullins, 805
F.3d at 766 (quoting Burchett v. Kiefer, 310 F.3d 937,
944 (6th Cir. 2002)).
C. Defendants’ Use of Force
The ultimate question here is whether, based on the
undisputed facts viewed in the light most favorable to
Plaintiff, Defendants acted in a way that clearly
violated the sufficiently defined constitutional rights of
Plaintiff. For the officers who fired guns at Plaintiff,
the more specific question is whether reasonably
competent officers could debate that Defendants had a
reasonable belief that Plaintiff posed an imminent

App. 60
threat of serious physical harm to them at the time
they used lethal force. For the officer who used a taser,
the question is whether reasonably competent officers
could debate that Plaintiff had a right not to be tasered
on the facts in this situation. These questions will be
addressed in turn.
1. Use of Lethal Force by Defendants Potratz
and Myers
Looking to the three factors relevant to determining
probable cause to use lethal force, the first two weigh
in favor of the reasonableness of Defendants’ actions.
Indeed, Defendants arrived at the scene with the
background knowledge conveyed by Dispatch. They
knew the crime at issue was severe—Plaintiff had just
repeatedly stabbed his 70-year-old grandmother. They
were told that Plaintiff was emotionally disturbed,
suicidal, and had a history with knives. While Plaintiff
did not actively resist arrest, his disturbed state and
threatening motion allowed for Defendants to perceive
an imminent threat to their safety.
Plaintiff has a hard time recalling that day due to
his mental state at the time, but his testimony on these
key points corroborates Defendants’ version of events:
(1) when Defendants located Plaintiff in the trailer, he
was sitting sideways in the bath tub and his right hand
was not visible to the officers (Dkt. #30-24, PageID
1742); (2) Plaintiff did not raise his arms or show his
hands when repeatedly ordered to do so (Id., PageID
1736; Dkt. #30, PageID 443, 450); (3) Plaintiff raised
his arm with a knife handle in it, holding it as if it were
a knife, to scare Defendants (Dkt. #30-24, PageID
1753); (4) after he made that motion, shots were fired,

App. 61
one of which hit Plaintiff in the face, and then Plaintiff
was tasered (Id., PageID 1742–43). Furthermore,
Plaintiff agrees that everything happened very quickly.
(Dkt. #30, PageID 443).
Deputy Myers remained in the northerly portion of
the trailer when the other officers exited and went to
another door. After the others pried open another door
and located Plaintiff, Sergeant Hedger ordered Myers
to come down the cluttered hallway towards them. He
did so and was positioned at the corner of the
bathroom. A body microphone worn by Deputy Potratz
recorded Deputy Myers repeatedly ordering Plaintiff to
raise his hands so he could see them in the seconds
before shots were fired. (Dkt. #30, PageID 446, 450).
Myers recounts tripping in the cluttered hallway and
then seeing Plaintiff raise his right hand from behind
his back and point what appeared to be a pistol directly
at his head. (Dkt. #30-10, PageID 1259–62). From
Plaintiff’s perspective, he remembers someone
“lunging,” which caused him to raise his arm holding
the black plastic handle in his hand like a knife to
scare them. (Dkt. #25-11, PageID 356). Myers fired his
pistol at Plaintiff and fell to the floor. (Dkt. #30-10,
PageID 1263).
While this was occurring, Deputy Potratz was
standing outside the trailer door with his rifle aimed at
Plaintiff. (Dkt. #30-8, PageID 1023). He was covering
the other officers while they were inside. (Id., PageID
1024). He saw Plaintiff moving towards Deputy Myers
with what he thought was a knife in his hand, which he
believed was a threat to Myers’ safety. (Id., PageID
1033–35). According to his deposition, he fired his gun

App. 62
because he thought Plaintiff was going to injure his
partner. (Id., PageID 1034).
Plaintiff argues that case law clearly establishes the
right of Plaintiff not to be shot in this situation. He
cites cases where the use of lethal force was found
unreasonable although the individual was armed with
a knife. (Dkt. #30, PageID 463) (citing Reed v. City of
Modesto, 122 F.Supp. 3d 967, 980 (E.D. Cali. 2015);
Zulock v. Shures, 441 F. App’x 294, 302 (6th Cir.
2010)). The conclusions in these cases, however, are
qualified with the factual caveats of the suspect “not
advancing on the police officers” and “walking away.”
(Id.). Other cases Plaintiff does not cite have found
probable cause to use lethal force in situations “[w]hen
a person aims a weapon in a police officer’s direction,”
Greathouse v. Couch, 433 Fed. App’x 370, 373 (6th Cir.
2011), and when an armed suspect in short range
“could raise and fire a gun with little or no time for an
officer to react.” Thomas, 854 F.3d at 365–67.
The Sixth Circuit has expressed that when an
officer had good reason to think a suspect was armed
his “decision to shoot under these circumstances was
the archetype of a split-second decision to which we
must defer.” Moore v. City of Memphis, 853 F.3d 866,
872 (6th Cir. 2017). Likewise, the facts in this case are
such that officers of reasonable competence could
debate whether Defendants acted constitutionally
when Plaintiff quickly raised and aimed a black item in
his hand at an officer. Although Plaintiff was not
actively resisting and did not in fact have a gun or
knife with a blade in his hand at the time, he created

App. 63
the appearance of rapidly drawing a deadly weapon at
one of the officers.
Plaintiff contends that there are significant factual
issues because of conflicting testimony on the details of
“what exactly happened in the split second prior to
Myers shooting Graves.” (Dkt. #30, PageID 469).
Specifically, the officers do not have a consistent
account of the timing of Defendant Myers’
behavior—he may have fallen before, after, or
simultaneously with firing his gun—and whether
Myers actually tossed a chair out of his way. (Id.).
Plaintiff also offers forensic evidence that indicates
Myers was standing up when he fired, rather than
falling as he testified. (Id.). These factual disputes do
not bar summary judgment, however, as their
resolution does not affect the legal question of qualified
immunity. The key fact in this case is that Plaintiff
raised his arm holding a black object to scare the
officers before they fired at him. Defendants and
Plaintiff provide consistent testimony regarding the
order of events, and there is no evidence presented that
creates a genuine dispute that the chronology was
otherwise. While Plaintiff’s response argues that a jury
could “find that Myers might have tripped and fired his
gun accidently causing Graves to raise his arm and
thus prompt Potratz to shoot,” (Id.), this is merely
speculation not supported by the record.
Since, at a minimum, competent officers could think
it was objectively reasonable for Defendants Potratz
and Myers to perceive an immediate threat of serious
bodily harm from Plaintiff at the moment they
employed lethal force, Defendants Potratz and Myers

App. 64
did not violate a clearly established constitutional right
by firing at Plaintiff and are therefore entitled to
qualified immunity.
2. Use of Non-Lethal Force by Defendant
Hedger
While Defendant Hedger’s employment of a taser
against Plaintiff is viewed in the context of the
constitutional boundaries clearly established by Sixth
Circuit case law, these facts do not fit clearly into the
paradigm established. Here, Defendant Hedger had
asked Plaintiff to let him see his hands several times
before his fellow officers fired shots. (Dkt. #30-3,
PageID 564). Since he was positioned outside the
trailer in such a way that he was not confident he could
make an effective taser shot, Hedger was trying to
move into the trailer to be in a better location. (Id.,
PageID 567–70). When he heard the shots go off and
saw Myers fall, he thought Myers had been shot and
that Plaintiff had a gun. (Id., PageID 573). While he
saw that Plaintiff’s “face was hanging off,” (Id., PageID
575), it was still not clear to Hedger whether Plaintiff
had a gun he could fire.
Hedger testifies that he again ordered Plaintiff to
show his hands and when Plaintiff did not comply he
tasered him. (Id., PageID 575–76). Plaintiff argues
against this point, indicating that the orders cannot be
heard on the Dashcam recording. (Dkt. #30, PageID
456). While this may be a genuine dispute, it is not
material to the legal analysis. Indeed, in this situation,
the question of whether and how Plaintiff was resisting
or disobeying commands is not particularly helpful.
Plaintiff admits that “Graves was unresponsive to the

App. 65
officers’ commands over several minutes.” (Id., PageID
468). When Plaintiff made his threatening gesture,
however, officers of reasonable competence could find
that he appeared to be a threat to officer safety (which
justified the other Defendants’ use of lethal force
above). The legal question regarding Defendant
Hedger, then, is whether he violated a clearly defined
constitutional right by tasering Plaintiff seconds after
he had already been shot.
Case law establishes that it is reasonable for an
officer to continue to use force until they realize that a
threat is clearly abated. See, e.g., Rush v. City of
Lansing, 644 Fed. Appx. 415, 422 (6th Cir. 2016)
(quoting Untalan v. City of Lorain, 430 F.3d 312, 315
(6th Cir. 2005)) (noting that “[w]ithin a few seconds of
reasonably perceiving a sufficient danger, officers may
use deadly force even if in hindsight the facts show that
the person threatened could have escaped unharmed.”)
For example, in Mullins v. Cyranek the Sixth Circuit
held that employing deadly force five seconds after a
threat had abated was still reasonable. Mullins, 805
F.3d at 768.
Based on the facts in this case, reasonably
competent officers could disagree about whether it was
constitutional to use non-deadly force (i.e., a taser)
against a suspect five to seven seconds after he was
already shot when he appeared to have a weapon.
Therefore, no clearly established constitutional right
was violated by Defendant Hedger and he, too, is
entitled to qualified immunity.

App. 66
IV. CONCLUSION
Plaintiff has failed to raise a genuine issue of
material fact regarding whether Defendants are
entitled to qualified immunity, and has failed to point
to any case law that clearly establishes a specific
constitutional right which was violated by Defendants
in this case. Accordingly,
IT IS ORDERED that Defendants’ Motion for
Summary Judgment (Dkt. #25) is GRANTED.
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE
Dated: October 10, 2018
I hereby certify that a copy of the foregoing document
was mailed to counsel of record on this date, October
10, 2018, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522

App. 67

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 17-12227
[Filed: October 10, 2018]
__________________________________________
RONALD GRAVES,
)
)
Plaintiff,
)
)
v.
)
)
SHERIFF DALE MALONE, in his official
)
capacity, and SERGEANT GARY HEDGER, )
DEPUTY KURT POTRATZ,
)
DEPUTY CHARLES MYERS, and
)
DEPUTY MELISSA CRAIN, in their
)
official and individual capacities,
)
)
Defendants.
)
__________________________________________)
JUDGMENT
In accordance with the court’s October 10, 2018
“Opinion and Order Granting Defendants’ Motion for
Summary Judgment,”

App. 68
IT IS ORDERED AND ADJUDGED that judgment
is entered in favor of Defendants and against Plaintiff
Ronald Graves.
DAVID J. WEAVER
CLERK OF THE COURT
Dated: October 10, 2018
By: s/Lisa Wagner
Lisa Wagner, Deputy Clerk and
Case Manager to
Judge Robert H. Cleland
APPROVED BY:
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE

App. 69

APPENDIX D
No. 18-2296
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: May 20, 2020]
__________________________________________
RONALD GRAVES,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
SHERIFF DALE MALONE, ET AL.,
)
)
Defendants-Appellees.
)
__________________________________________)
ORDER
BEFORE: COLE, Chief Judge; MERRITT and
LARSEN, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

App. 70
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

